Department of Homeland Security
   Ofﬁce of Inspector General

               Special Review of the Science and 

             Technology Directorate’s Contracts with 

                       a Small Business 


                           (Summary) 





OIG-10-103                                               July 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      July 27, 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report represents an abbreviated version of our official use only report addressing
allegations that a program manager for the Science and Technology Directorate violated
regulations governing contract management. It is based on interviews with employees
and officials of relevant agencies and organizations, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Background
                       The Science and Technology Directorate (S&T) is responsible for
                       the Department of Homeland Security’s research and development
                       (R&D) efforts. The directorate maintains some research capability
                       at the Transportation Security Lab and the Environmental
                       Measures Laboratory, among others. However, S&T funds other
                       entities, such as national labs, Federally Funded Research and
                       Development Centers, and private sector organizations, to conduct
                       most of the department’s R&D.

                       An S&T official raised concerns about S&T’s interaction with a
                       small business. We reviewed allegations that an S&T program
                       manager facilitated the development of a relative’s research tool at
                       a federal laboratory by providing S&T-funded software, including
                       products funded by an SBIR contract. The related program
                       manager used the tools to compete with the company that created
                       the tools for federal research funding, according to the allegations,
                       and these individuals used the threat of competition and other
                       financial pressure to coerce the company into relinquishing rights
                       to software it had developed.

                       We conducted our fieldwork from February 2008 through January
                       2009, during which time we conducted 38 interviews and gathered
                       thousands of pages of documents, including contracts, invoices,
                       spreadsheets, and email messages. We interviewed personnel at
                       the small business, S&T, CBP, the federal laboratory, the
                       Department of the Interior, and other agencies.

                       This review was conducted under the authority of the Inspector
                       General Act of 1978, as amended, and according to the Quality
                       Standards for Inspections issued by the President’s Council on
                       Integrity and Efficiency.




      Special Review of the Science and Technology Directorate’s Contracts with a Small Business


                                               Page 1

Results of Review
                      An S&T program manager abused his position and did not act
                      according to the DHS policy for ethical conduct when he pursued a
                      plan to use S&T funds to develop software that would be delivered
                      to a program at a federal laboratory administered by a relative of
                      his. The program manager did not fully inform his supervisor or
                      the designated agency ethics official of the plan. When asked by
                      his supervisor to disclose the facts to the designated agency ethics
                      official, the program manager told the ethics official that the
                      relative led the branch at the laboratory receiving the funds but that
                      neither he nor the relative’s employees performed the research. On
                      that basis he was allowed to continue transferring funds to the
                      laboratory. However, he later transferred money to fund his
                      relative’s employees’ work. The program manager did not follow
                      the department’s policy to act with honesty and integrity, and to
                      avoid appearances of legal or ethical violations.

                      The S&T program manager also abused his position and violated
                      department policy when he provided contracting officers with
                      inaccurate information, and on two occasions instructed the
                      company to charge work for one contract to another without
                      informing the contracting officer. He delayed approval of an
                      invoice to pressure the company to conduct unrelated activities.
                      The program manager may have violated the Anti-Deficiency Act
                      by coercing the small business to provide software and services
                      without compensation. S&T did not detect the improper activities
                      because the program manager did not reveal all relevant facts
                      regarding his continued participation in certain contracts.

                      We made four recommendations to resolve this situation and
                      strengthen management oversight.




     Special Review of the Science and Technology Directorate’s Contracts with a Small Business


                                              Page 2

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
